APPENDIX C

Case 3:18-cr-00203-VLB Document 65 Filed 02/06/20 Page 1 of 5

UNITED STATES DISTRICT COURT
District of Connecticut
UNITED STATES OF AMERICA
v.

JUDGMENT IN A CRIMINAL CASE
CASE NO.: 3:18-cr-203-VLB
USM NO: 21318-014

JAYREN JAKAR WYNN
Patricia Stolfi Collins
Assistant United States Attorney
James P. Maguire
Defendant=s Attorney
THE DEFENDANT: pled guilty to Count One of the Information.
Accordingly, the defendant is adjudicated guilty of the following offense:
Title & Section

Nature of Offense

Offense Concluded

Count

18 U.S.C. §§ 922(g)(1)
and 924(a)(2)

Unlawful Possession of a
Firearm by a Felon

7/12/2018

1s

The following sentence is imposed pursuant to the Sentencing Reform Act of 1984.
IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons
to be imprisoned for a total of 78 months, to run consecutively with the sentence
imposed for the violations of supervised release on case 3:12-cr-206-VLB-2 and
concurrently with any state sentence.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a
total term of 3 years. The Mandatory and Standard Conditions of Supervised Release
as attached, are imposed. In addition, the following Special Conditions are imposed:
(1) The defendant shall obtain and maintain full-time legal employment.
(2) The defendant shall comply with meeting with the Probation office and file any
requested monthly reports.

Page 1 of 5
2/27/18

Revised

Case 3:18-cr-00203-VLB Document 65 Filed 02/06/20 Page 2 of 5

(3) The defendant shall submit to mental health and substance abuse evaluations
and participate in any treatment as directed by the Probation office on an outpatient basis, and on an inpatient basis upon order of the Court. The defendant
shall pay the costs of such treatment as the Probation office deems him capable
of paying.
(4) The defendant’s home, person, vehicle, and place of employment shall be subject
to search under reasonable suspicion by the Probation office and law
enforcement if deemed necessary.
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of
payments as follows:
Special Assessment:
Fine:
Restitution:

$100.00 to be paid immediately.
$0.00
$0.00

FORFEITURE
The following property of the defendant is ordered condemned and forfeited to the
United States of America: One (1) Hi-Point .380 caliber semi-automatic pistol bearing
serial number 837513 and all related ammunition.
It is further ordered that the defendant will notify the United States Attorney for this
district within 30 days of any change of name, residence or mailing address until all
fines, restitution, costs and special assessments imposed by this judgment are paid.
The following counts have been dismissed: Count One of the Indictment.
JUDICIAL RECOMMENDATION(S) TO THE BUREAU OF PRISONS
The defendant is currently serving a term of incarceration in a Connecticut Department
of Correction facility. The Court recommends that the defendant remain designated to
the Connecticut Department of Corrections facility during his term of incarceration for
state offenses to effectuate the Court’s intention that the federal sentence run
concurrently with any state sentence.
Upon his release from a state facility, the Court recommends to the Federal Bureau of
Prisons that the defendant be housed at FMC Devens for the possibility of employment
training and its proximity to Connecticut for the defendant to maintain familial
relationships, or other facility close to Connecticut.

Page 2 of 5
2/27/18

Revised

Case 3:18-cr-00203-VLB Document 65 Filed 02/06/20 Page 3 of 5

January 22, 2020
Date of Imposition of Sentence
Vanessa Bryant

2020.02.06 18:33:44 -05'00'
____________________________
Vanessa L. Bryant
United States District Judge

Page 3 of 5
2/27/18

Revised

Case 3:18-cr-00203-VLB Document 65 Filed 02/06/20 Page 4 of 5

CONDITIONS OF SUPERVISED RELEASE
In addition to the Standard Conditions listed below, the following indicated () Mandatory Conditions are imposed:

MANDATORY CONDITIONS
(1) You must not commit another federal, state or local crime.
(2) You must not unlawfully possess a controlled substance.
(3) You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
‫ ܆‬The above drug testing condition is suspended, based on the court’s determination that you pose a low risk of future
substance abuse. (check if applicable)
(4) ‫ ܆‬You must make restitution in accordance with 18 U.S.C.§§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (check if applicable)
(5)  You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
(6) ‫ ܆‬You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which you reside, work,
are a student, or were convicted of a qualifying offense. (check if applicable)
(7) ‫ ܆‬You must participate in an approved program for domestic violence. (check if applicable)

STANDARD CONDITIONS
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
(1)

(2)
(3)
(4)
(5)

(6)
(7)

(8)

(9)
(10)

(11)
(12)

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different
time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If
notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer
within 72 hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation
officer to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least
10 days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
You must follow the instructions of the probation officer related to the conditions of supervision.

Page 4 of 5
2/27/18

Revised

Case 3:18-cr-00203-VLB Document 65 Filed 02/06/20 Page 5 of 5

Upon a finding of a violation of supervised release, I understand that the court may (1) revoke supervision and impose a
term of imprisonment, (2) extend the term of supervision, and/or (3) modify the conditions of supervision.
These conditions have been read to me. I fully understand the conditions and have been provided a copy of them.
(Signed)
Defendant

Date

U.S. Probation Officer/Designated Witness

Date

CERTIFIED AS A TRUE COPY ON THIS DATE: ______________________

By: ___________________________
Deputy Clerk

RETURN
I have executed this judgment as follows:
Defendant delivered on _______________ to ______________________________ a __________________________, with a
certified copy of this judgment.

Lawrence Bobnick
Acting United States Marshal
By
Deputy Marshal

Page 5 of 5
2/27/18

Revised

